<html>
<title> - AMERICAN COMPETITIVENESS: THE ROLE OF RESEARCH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       AMERICAN COMPETITIVENESS:
                  THE ROLE OF RESEARCH AND DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, FEBRUARY 6, 2013

                               __________

                            Serial No. 113-1

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
78-823                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
ANDY HARRIS, Maryland                SCOTT PETERS, California
RANDY HULTGREN, Illinois             DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                ELIZABETH ESTY, Connecticut
BILL POSEY, Florida                  MARC VEASEY, Texas
CYNTHIA LUMMIS, Wyoming              JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            MARK TAKANO, California
THOMAS MASSIE, Kentucky              VACANCY
KEVIN CRAMER, North Dakota
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah


                            C O N T E N T S

                      Wednesday, February 6, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................    10

                               Witnesses:

Mr. Richard Templeton, President and CEO, Texas Instruments
    Oral Statement...............................................    11
    Written Statement............................................    14

Dr. Shirley Ann Jackson, President, Rensselaer Polytechnic 
  Institute
    Oral Statement...............................................    24
    Written Statement............................................    26

Dr. Charles Vest, President, National Academy of Engineering
    Oral Statement...............................................    38
    Written Statement............................................    41

             Appendix I: Answers to Post-Hearing Questions

Mr. Richard Templeton, President and CEO, Texas Instruments......    68

Dr. Shirley Ann Jackson, President, Rensselaer Polytechnic 
  Institute......................................................    72

Dr. Charles Vest, President, National Academy of Engineering.....    77


                       AMERICAN COMPETITIVENESS:
                  THE ROLE OF RESEARCH AND DEVELOPMENT

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 9:34 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar S. Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] T8823.001

[GRAPHIC] [TIFF OMITTED] T8823.002

[GRAPHIC] [TIFF OMITTED] T8823.003

[GRAPHIC] [TIFF OMITTED] T8823.004

[GRAPHIC] [TIFF OMITTED] T8823.005

    Chairman Smith. The Science, Space, and Technology 
Committee will come to order. I will recognize myself for an 
opening statement, then the Ranking Member for her opening 
statement.
    The topic of today's hearing, the first of this Committee 
in this Congress, is ``American Competitiveness: The Role of 
Research and Development.'' This is an appropriate hearing 
because much of the jurisdiction of this Committee relates to 
keeping America globally competitive.
    America's ability to compete depends on whether we have the 
present vision to conduct the science that will define the 
future. As the wall behind me says, ``Where there is no vision, 
the people perish''--this Committee's goal, and today's 
hearing, is to help define that vision and ensure that America 
continues to be the leader of global innovation.
    Our first hearing today will begin this process by 
examining the positive impact of today's R&D and looking 
forward to potential breakthrough innovations in the future.
    Americans have always been innovators and explorers. Our 
ancestors crossed oceans, opened frontiers and ventured to 
explore a new continent and even traveled to the Moon. From the 
Lewis and Clark Expedition to the International Space Station, 
from the telegraph to broadband Internet, Americans have led 
the exploration of the unknown and developed inventions of the 
future. In our short history we have produced world-famous 
scientists and inventors like Benjamin Franklin, Thomas Edison 
and Jonas Salk.
    But countless more American scientists who are not world-
famous nonetheless have been changing this world. Have you 
heard of William Burroughs, John Bardeen or Ruth Benerito? 
According to the National Inventors Hall of Fame, Mr. Burroughs 
created the electronic calculator. Mr. Bardeen worked with the 
Nobel prize-winning team that developed the transistor and 
helped create Silicon Valley in California and Silicon Hills in 
Austin, Texas. And we can thank chemist Ruth Benerito for 
developing wrinkle-free cotton, which is in the shirts many 
Americans wear today, including mine.
    But is America as innovative as it used to be? Some wonder 
if America's greatest technological achievements are behind us, 
and if other nations like China and India will soon surpass us, 
or perhaps already have.
    Some nations are creating environments so attractive to 
global manufacturers that companies have relocated much of 
their activities on foreign soil. Our global trade imbalance is 
growing as we export less and import more, and today, this 
imbalance includes many high-tech products. Other nations are 
changing their policies to become more competitive, and so 
should we.
    Fortunately, blazing trails into new frontiers is what 
America has always done best. To set the stage for this 
Congress and to understand where America is heading, we have 
very knowledgeable witnesses testifying before us today. Each 
of them thoroughly understands both public and private research 
and development efforts as well as where our global competitors 
are headed. Members of this Committee have the opportunity to 
work together on policies that will help America stay 
competitive, and today's hearing is a first step.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Chairman Lamar Smith

    The topic of today's hearing, the first for this Committee in this 
Congress, is ``American Competitiveness: The Role of Research and 
Development.'' This is an appropriate hearing because much of the 
jurisdiction of this Committee relates to keeping America globally 
competitive.
    America's ability to compete depends on whether we have the present 
vision to conduct the science that will define the future. As the wall 
behind me says, ``Where there is no vision, the people perish.'' This 
Committee's goal--and today's hearing--is to help define that vision 
and ensure that America continues to be the leader of global 
innovation.
    Our first hearing today will begin this process by examining the 
positive impact of today's R&D and looking forward to potential 
breakthrough innovations in the future.
    Americans have always been innovators and explorers. Our ancestors 
crossed oceans, opened frontiers and ventured to explore a new 
continent and even travel to the Moon. From the Lewis and Clark 
Expedition to the International Space Station, from the telegraph to 
broadband internet, Americans have led the exploration of the unknown 
and developed inventions of the future.
    In our short history we have produced world famous scientists and 
inventors like Benjamin Franklin, Thomas Edison and Jonas Salk. But 
countless more American scientists who are not world famous nonetheless 
have been changing the world.
    Have you heard of William Burroughs, John Bardeen or Ruth Benerito? 
According to the National Inventors Hall of Fame, Mr. Burroughs created 
the electronic calculator. Mr. Bardeen worked with the Nobel prize-
winning team that developed the transistor and helped create Silicon 
Valley in California and Silicon Hills in Austin, Texas. And we can 
thank chemist Ruth Benerito for developing wrinkle-free cotton, which 
is in the shirts many Americans wear today.
    But is America as innovative as it used to be? Some wonder if 
America's greatest technological achievements are behind us, and if 
other nations--like China and India--will soon surpass us, or perhaps 
already have.
    Some nations are creating environments so attractive to global 
manufacturers that companies have relocated much of their activities to 
foreign soil. Our global trade imbalance is growing as we export less 
and import more, and today, this imbalance includes many high-tech 
products. Other nations are changing their policies to become more 
competitive, and so should we. Fortunately, blazing trails into new 
frontiers is what America has always done best.
    To set the stage for this Congress and to understand where America 
is heading, we have very knowledgeable witnesses testifying before us 
today. Each of them thoroughly understands both public and private 
research and development efforts as well as where our global 
competitors are headed.
    Members of this Committee have the opportunity to work together on 
policies that will help America stay competitive. Today's hearing is a 
first step.

    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, Ms. Johnson, is recognized for 
hers.
    Ms. Johnson. Thank you very much, Chairman Smith, for 
holding this hearing, and thank you also for yesterday's 
bipartisan retreat, which was delightful.
    Chairman Smith. Thank you.
    Ms. Johnson. I am looking forward to these very 
distinguished witnesses today and hope that all of us will 
listen attentively. I know that we will hear from our witnesses 
about the critical importance of federal research and 
development investments, and I look forward to their testimony.
    As the competition for scarce resources has intensified, 
there have been some who would describe the research community 
as just another special interest lobbying group to share the 
pie. I could not disagree more. They should have special 
interest and self-interest, and I hope they do, whether they 
are representing universities or high-tech companies. But to 
label them as nothing more than another special interest group 
is, at best, misleading. Without dismissing the value of many 
other investments we make with our limited discretionary 
budget, there is probably no single investment we make, other 
than education, that has done more to ensure our Nation's long-
term economic vitality than the investment in R&D.
    This holds true for the very long-term investments that the 
Federal Government is uniquely suited to make in exploratory 
research where we have no idea what, if any, applications will 
result. But it also holds true for the financial and 
intellectual partnerships we build with the private sector to 
address more mid-term R&D challenges. All of these investments 
yield immeasurable benefits to our economy and our society in 
terms of companies built, jobs created, and a society made 
healthier, safer, and more secure. They also have the secondary 
benefit of training the next generation of scientists and 
engineers who will contribute in all of these ways to their own 
generation, and I am particularly pleased to see a few of them 
sitting out there I hope will be some of those in the future.
    Some specific examples of groundbreaking innovations and 
companies that would not have been possible without federal R&D 
investments include the Internet, GPS, Google, the iPhone, and 
God, what we would do without barcodes? I expect that we will 
hear more examples from the witnesses, and we could probably 
spend our entire two hour hearing reading off such a list.
    And yet, I fear, some of my colleagues in Congress would 
still be unimpressed. We will still hear arguments that the 
Federal Government's role should be restricted to so-called 
basic research because the private sector can do the rest 
alone, that everybody has to take a cut, that the 8.2 percent 
cuts looming on March 1 may hurt a bit but are better for the 
country in the long run.
    I happen to believe personally that we can invest it in 
unemployment and food stamps or we can invest it in our future 
that would eliminate the need for both. So let me attempt to 
briefly preempt some of these arguments. R&D is not a simple, 
linear process from basic to applied to development and so on 
to a final commercial product. It also doesn't go in only one 
direction. R&D is part of a complex innovation process with 
many feedback loops. There is no clear line at which the public 
role ends and the private role begins and there has not been in 
any of our lifetimes. That is why partnerships between the 
public sector, namely our federal agencies, and the private 
sector, such as Mr. Templeton's company, Texas Instruments, are 
so important.
    Second, I would like to say a word about the consequences 
of sequestration. At the risk of repeating myself, we would not 
just be turning off the lights on many groundbreaking research 
facilities and experiments today, we would be eating our seed 
corn for tomorrow. We would know that at the end of the tunnel, 
the lights are out. What talented young person would see a 
future in scientific research after sequestration does its 
damage?
    Our witnesses were asked in their testimony to speculate on 
what kind of breakthrough technologies we might see in the next 
5 to 20 years. I think if any of us knew the answer to that, we 
would really be rich. That is the point. We don't know what 
directions our research might take, what unknown applications 
and innovations will be developed, and nor did our predecessors 
when they invested in what we have today. We cannot afford to 
overestimate what the private sector is prepared to do on its 
own, and we cannot afford to underestimate the negative 
consequences for the Nation's R&D enterprise of letting 
sequestration go forward.
    With that, Mr. Chair, I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of RAnking Member Eddie Bernice Johnson

    Thank you Chairman Smith for holding this hearing, and thank you to 
our distinguished witnesses for taking the time to appear before the 
Committee this morning. I know that we will hear from all of our 
witnesses about the critical importance of federal research and 
development investments, and I look forward to your testimony.
    As the competition for scarce resources has intensified, there have 
been some who would describe the research community as just another 
special interest group lobbying for their share of the pie. I could not 
disagree more. Yes, they have some self-interest, whether they are 
representing universities or high-tech companies.
    But to label them as nothing more than another special interest 
group is, at best, misleading. Without dismissing the value of many 
other investments we make with our limited discretionary budget, there 
is probably no single investment we make, other than education, that 
has done more to ensure our nation's long-term economic vitality than 
our investment in R&D.
    This holds true for the very long term investments that the federal 
government is uniquely suited to make in exploratory research--where we 
have no idea what, if any, applications will result. But it also holds 
true for the financial and intellectual partnerships we build with the 
private sector to address more mid-term R&D challenges.
    All of these investments yield immeasurable benefits to our economy 
and our society in terms of companies built, jobs created, and a 
society made healthier, safer, and more secure. They also have the 
secondary benefit of training the next generation of scientists and 
engineers who will contribute in all of these ways to their own 
generation, and so on.
    Some specific examples of the groundbreaking innovations and 
companies that would not have been possible without federal R&D 
investments include the internet, GPS, Google, the iPhone, and 
barcodes. I expect we will hear more examples from the witnesses. We 
could probably spend our entire two-hour hearing reading off such a 
list.
    And yet, I fear, some of my colleagues in Congress would still be 
unimpressed. We will still hear arguments that the federal government's 
role should be restricted to so-called basic research because the 
private sector can do the rest alone. That everybody has to take a cut. 
That the 8.2 percent cuts looming on March 1 may hurt a bit but are 
better for the country in the long run.
    So let me attempt to briefly preempt those arguments. R&D is not a 
simple, linear process from basic to applied to development and so on 
to a final commercial product. It also doesn't go in only one 
direction. R&D is part of a complex innovation process with many 
feedback loops.
    There is no clear line at which the public role ends and the 
private role begins and there has not been in any of our lifetimes. 
That is why partnerships between the public sector, namely our federal 
agencies, and the private sector, such as Mr. Templeton's company, are 
so important.
    Second, I'd like to say a word about the consequences of 
sequestration. At the risk of repeating myself, we would not just be 
turning off the lights on many groundbreaking research facilities and 
experiments today, we would be eating our seed corn for tomorrow.
    What talented young person would see a future in scientific 
research after sequestration does its damage?
    Our witnesses were asked in their testimony to speculate on what 
kind of breakthrough technologies we might see in the next 5-20 years. 
I think if any of us knew the answer to that, we'd be rich. That's the 
point--we don't know what directions our research may take, what 
unknown applications and innovations will be developed.
    We cannot afford to overestimate what the private sector is 
prepared to do on its own. And we cannot afford to underestimate the 
negative consequences for the nation's R&D enterprise of letting 
sequestration go forward.

    Chairman Smith. Thank you, Ms. Johnson.
    Let me introduce our witnesses. Our first witness is Mr. 
Richard Templeton, Chairman, President and CEO of Texas 
Instruments. Mr. Templeton has served as Texas Instruments' 
Chairman of the Board since April 2008 and President and Chief 
Executive Officer since May 2004. In addition to his work with 
Texas Instruments, Mr. Templeton also serves as the Chair of 
the Task Force on American Innovation, a broad group of 
stakeholders that support scientific research. Mr. Templeton 
earned his B.S. in electrical engineering from Union College in 
New York.
    Our next witness is Dr. Shirley Ann Jackson, President of 
Rensselaer Polytechnic Institute since 1999. Prior to her 
tenure, Dr. Jackson served as the Chair of the U.S. Nuclear 
Regulatory Commission. She also has had an extensive career 
working in several prestigious physics laboratories researching 
subatomic parties. Dr. Jackson earned her Ph.D. in theoretical 
elementary particle physics from MIT.
    Our final witness is Dr. Charles Vest, President of the 
National Academy of Engineering. He was elected to this 
position in 2007 and is serving a six-year term. Dr. Vest also 
is the President Emeritus of the Massachusetts Institute of 
Technology and earned his Ph.D. in mechanical engineering from 
the University of Michigan. Prior to his time in the academic 
world, Dr. Vest was Vice Chair of the U.S. Council of 
Competitiveness for eight years and a member of the President's 
Committee of Advisors on Science and Technology during the Bush 
and Clinton Administrations. Both Dr. Vest and Dr. Jackson were 
also distinguished members of the panel that authored the 
original 2005 National Academy study Rising Above the Gathering 
Storm. This study recommended ways to keep American 
economically prosperous.
    Before I recognize Mr. Templeton, I just want to call 
attention to Members on their desk, they should have an op-ed 
from today's Politico that was written by two of our witnesses 
today and which is well worth reading. It is called ``A 
Critical Role in Innovation'' by Richard Templeton and Shirley 
Ann Jackson.
    Chairman Smith. Mr. Templeton, we will begin with you.

              TESTIMONY OF MR. RICHARD TEMPLETON,

              PRESIDENT AND CEO, TEXAS INSTRUMENTS

    Mr. Templeton. I want to thank Chairman Smith, Ranking 
Member Johnson and of course all the Members of the Committee 
for convening this hearing so early in the new Congress on such 
an important topic. I really am honored to be here today with 
Dr. Jackson and Dr. Vest, really well-known innovators with 
great, keen insight into policy.
    Over the last 50 years, scientific and technological 
innovation has been responsible for as much as half of our 
economic growth. The United States has been a clear net global 
winner during this time, and while there are a number of 
factors that can explain that, I actually believe the 
investments by the Federal Government in basic research at our 
universities and at our federal labs were a critical factor in 
determining our success.
    I would point out as we think about this topic, this phrase 
of research and development, or R&D, is used inseparably many 
times, and I think it is important to point out that inside of 
research and development, there is something called basic 
research, and to get a sense of that, it is really something 
that is done to discover basic principles without necessarily 
having a commercial purpose in mind. It could take 5 to as much 
as 15 years for that to pay off, or perhaps never. But when 
those basic principles are discovered and successful, they can 
have enormous dividends.
    For example, the Space Program and the Defense Department 
propelled many of the advancements in the semiconductor 
industry where today U.S.-headquartered firms hold nearly half 
of the worldwide market and support nearly 250,000 direct jobs. 
The Internet is another wonderful example.
    Basic research requires significant funding from the 
Federal Government because it can take the long-term view and 
make the scope of investment needed. This funding goes to 
universities, not to companies. I offer the Committee four 
points to consider when you think about research funding.
    First, the United States was a clear winner of the first 
round of the innovation game. We are home, as was noted in the 
opening comments, to some of those most innovative companies in 
the world, names like Apple, names like Google, names like 
Intel, and we of course like the name of Texas Instruments on 
that list. The United States is the net winner economically 
because these companies are headquartered here in the United 
States and they are not headquartered somewhere else. They are 
here in many ways because the basic research many years ago was 
done in the United States. We had the best research 
universities, which in turn attracted the smartest people from 
around the world to want to go practice at those best 
institutions.
    Second point, that this game is changing in round two. The 
relative advantages that the United States has had over the 
last 50 years have significantly weakened. Today we risk that 
the next generation of these companies will in fact be started 
up and headquartered somewhere else. So there is really a few 
simple reasons as to why that could take place. First, other 
countries have seen the United States playbook and they are 
very interested in being able to replicate it. They see the 
benefits that it has yielded and they are busy putting in place 
programs to provide incentives for companies to try and start 
in their countries. The second element that has weakened the 
U.S. position is that federal investment in basic research, in 
physical sciences and engineering, as a percent of GDP has 
fallen to less than half the level since 1970. If you contrast 
that by some very key competitors, key competitors meaning 
countries like Korea or China, they are actually increasing 
their R&D in physical sciences as a percent of GDP. Lastly is 
skills. Our industry works because we have great minds, and 
there are two issues here. First, our immigration policies do 
not encourage today the best minds to come to the United States 
and in fact stay in the United States, and also the best minds 
have got other choices around the world. In fact, today we 
educate some of these best minds and then we show them the door 
to return home. Secondarily is our own K-12 STEM systems are 
faltering and we have to get that turned around.
    The third point that I would like to point out is that the 
stakes in the next round, the next 50 years, are even higher 
than they were for the last 50 years. Leadership in 
nanoelectronics will impact many aspects of our economy: health 
care, energy, transportation, safety, security and much more. 
China and Korea understand that the country that leads in 
nanoelectronics will reap the economic benefits the way the 
United States has dominated the last 50 years, or the 
microelectronics era.
    Fourth point: I think there are four areas that changes in 
policies need to be focused to change the outcome. First, the 
federal funding in basic research. Even in tough economic 
times, we must protect the investments in the future. Second, 
we must make a priority for world-class STEM education, that is 
K-12, in the United States. This needs to be a national 
imperative, implemented on a local basis. Three, high-skilled 
immigration reform. I appreciate the leadership that, Mr. 
Chairman, you have shown, Ms. Lofgren, on the issues, and we 
look forward, hopefully, to a resolution to that. And then 
fourth is comprehensive tax reform for U.S. companies to build 
to compete globally. The world has changed considerably since 
1986, the last time taxes were reformed. We must have an 
environment where U.S.-headquartered companies can compete 
effectively on a global basis because that is where 95 percent 
of the world's population is.
    So my conclusion, investing in basic research at our 
universities has been critical to America's success over the 
past 50 years, and I believe it will be more important going 
forward, and I am certainly happy to answer any questions.
    [The prepared statement of Mr. Templeton follows:]

    [GRAPHIC] [TIFF OMITTED] T8823.006
    
    [GRAPHIC] [TIFF OMITTED] T8823.007
    
    [GRAPHIC] [TIFF OMITTED] T8823.008
    
    [GRAPHIC] [TIFF OMITTED] T8823.009
    
    [GRAPHIC] [TIFF OMITTED] T8823.010
    
    [GRAPHIC] [TIFF OMITTED] T8823.011
    
    [GRAPHIC] [TIFF OMITTED] T8823.012
    
    [GRAPHIC] [TIFF OMITTED] T8823.013
    
    [GRAPHIC] [TIFF OMITTED] T8823.014
    
    [GRAPHIC] [TIFF OMITTED] T8823.015
    
    Chairman Smith. Thank you, Mr. Templeton.
    Dr. Jackson.

             TESTIMONY OF DR. SHIRLEY ANN JACKSON,

          PRESIDENT, RENSSELAER POLYTECHNIC INSTITUTE

    Dr. Jackson. Chairman Smith, Ranking Member Johnson, 
distinguished Members of the Committee, thank you for the 
opportunity to testify before you on American competitiveness, 
the role of research and development.
    I have to say that Rensselaer Polytechnic Institute 
graduates have been an integral part of America's promise 
through discovery and innovation since the university was 
founded in 1824. More importantly, America's health, 
prosperity, security and global leadership depend upon our 
strength, as you have heard, in science and technology. Our 
investments in scientific research and education have made a 
difference in people's lives. Let me illustrate.
    The New York Times reported that in October 2004, in 
Afghanistan, a mortar severely injured a U.S. Marine corporal, 
Isaias Hernandez. He is an example of so many of our wounded 
warriors. Shrapnel tore away 70 percent of the muscle in his 
thigh and fractured his femur. He endured four years of 
surgeries and physical therapy to little effect until Dr. 
Stephen Badylak of the McGowan Institute of Regenerative 
Medicine at the University of Pittsburgh implanted in the 
corporal's thigh a new gel-based therapy called the 
extracellular matrix derived from pig bladders. After about 6 
weeks, the implanted mixture spurred the growth of muscle 
tissue, tendons and vasculature and restored physical strength. 
This work is part of a government-supported regenerative 
medicine research program at Pittsburgh.
    Now, this and much more is the kind of work that faculty 
and students at Rensselaer do, at MIT do, understanding the 
role of the extracellular matrix in cell signaling and tissue 
regeneration, developing enzyme-based coatings that kill 
antibiotic-resistant bacteria on contact, bioengineering 
synthetic heparin, all dependent upon federal support of 
research across the life and physical sciences, chemical and 
biological engineering, industrial engineering, nanotechnology 
and data analytics. Life-changing, job-creating, security-
sustaining, scientific discoveries and technological 
innovations have rested on strong collaboration among business, 
government and academia. This three-way partnership has created 
an innovation ecosystem that has driven our economy, prosperity 
and well-being for decades.
    Federal investments in scientific research and development 
built the foundations for a broad range of industries. Many 
leading U.S.-based global companies including Texas 
Instruments, Genentech, Google and Cisco Systems all trace 
their roots to federal research investments.
    As you have heard, China, India and other nations are 
emulating our model by making concomitant investments to gain 
the benefits we enjoy. If we are to remain globally 
competitive, we must sustain and enhance the U.S. innovation 
ecosystem. This requires four things: first, strategic focus to 
choose important and promising areas to explore and develop and 
match them to the talent, resources and opportunities we have 
or can attract; second, game-changing idea generation that 
arises out of basic research that pushes the boundaries of 
human knowledge; third, translational pathways that bring 
discoveries into commercial or societal use; fourth--capital, 
financial, infrastructural and human capital to support the 
development and exploitation of promising new technologies.
    We need a new financial model for technology-based startups 
that overcomes the so-called valley of death. We need tax 
reform. We need physical capital including shared 
infrastructure, which allows new technologies to be improved 
and scaled for the marketplace. For example, the Computational 
Center for Nanotechnology Innovations, a joint effort of IBM, 
New York State and Rensselaer, holds one of the world's most 
powerful university-based supercomputers, used for research by 
our faculty and students and by companies of all sizes to 
perform research and development and to tap the expertise of 
Rensselaer scientists and engineers. We must draw more young 
Americans into STEM fields. We must improve science and 
mathematics education for all of our children. Retaining high-
caliber talent from abroad is important, especially those 
obtaining advanced degrees in science and engineering from 
American universities. Advanced manufacturing requires that we 
make comprehensive education and retraining a priority.
    Now, we remain the world leader in scientific discovery and 
technological innovation but the health of our innovation 
ecosystem is in jeopardy. As the Congress debates funding for 
research in these austere times, we know that there are 
significant challenges, but the nations that invest in 
research, educate the next generations and make commitments to 
build effective innovation ecosystems will be the global 
leaders of tomorrow.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Dr. Jackson follows:]

    [GRAPHIC] [TIFF OMITTED] T8823.016
    
    [GRAPHIC] [TIFF OMITTED] T8823.017
    
    [GRAPHIC] [TIFF OMITTED] T8823.018
    
    [GRAPHIC] [TIFF OMITTED] T8823.019
    
    [GRAPHIC] [TIFF OMITTED] T8823.020
    
    [GRAPHIC] [TIFF OMITTED] T8823.021
    
    [GRAPHIC] [TIFF OMITTED] T8823.022
    
    [GRAPHIC] [TIFF OMITTED] T8823.023
    
    [GRAPHIC] [TIFF OMITTED] T8823.024
    
    [GRAPHIC] [TIFF OMITTED] T8823.025
    
    [GRAPHIC] [TIFF OMITTED] T8823.026
    
    [GRAPHIC] [TIFF OMITTED] T8823.027
    
    Chairman Smith. Thank you, Dr. Jackson.
    Dr. Vest.

                 TESTIMONY OF DR. CHARLES VEST,

           PRESIDENT, NATIONAL ACADEMY OF ENGINEERING

    Dr. Vest. Chairman Smith, Ranking Member Johnson, honorable 
Members, it is a privilege to be here today.
    Today, the process of R&D that we have been discussing 
moves new scientific knowledge and new technology developments 
to marketed products and services at an ever-accelerating 
speed. It is an increasingly complicated process. It is a 
globalized process that is at once both highly competitive and 
cooperative, and it is a process driven by basic research--and 
one that would ultimately die without basic research.
    Some examples of 20th-century innovations that all began 
primarily with university research include computers, lasers, 
the Internet, the deployment of the Worldwide Web, the basics 
of the GPS system, numerically controlled machining for 
manufacturing, the genomic revolution and most of modern 
medicine. I contend that there is not a job in America today 
that does not depend directly on one or more of just these six 
examples.
    Now, predictions of future technologies are very difficult. 
When I graduated from undergraduate school at West Virginia 
University as a mechanical engineer in 1963, none of us talked 
about going into the information technology industry because 
the IT industry did not exist, but our generation invented it 
and it became the dominant source of employment for engineers 
in the intervening years. So I am a true believer that if we 
invest well in basic research and education, we undoubtedly 
will be surprised by what the new innovations are that actually 
arise.
    Let me say three barriers to continued success of our 
wonderful American innovation system. Our K-12 system is 
failing far too many of our young people. Our current federal 
policies, as has been said, make it difficult for brilliant 
foreign graduate students to stay on in the United States yet 
such immigrants from the recent decades have contributed hugely 
as professors and especially as entrepreneurs to our system. 
And our federal R&D tax credit, among other things, needs to be 
made permanent.
    I was asked to comment on National Academy's reports, and I 
want to cite three that are particularly relevant to the topic 
of this hearing. I start with our 2005 baseline report, Rising 
Above the Gathering Storm, and thank this Committee for 
supporting the authorization, passage and reauthorization of 
the America COMPETES Act that is largely based on it. Our 
findings and recommendations in Rising Above the Gathering 
Storm are as relevant today as they were when they were 
drafted, and indeed, you heard that from Mr. Templeton. This 
report offered four broad recommendations, each backed by 
specific evidence and 20 specific action items, but the big-
picture items were four: move K-12 STEM education in the U.S. 
to a leading position by global standards, double federal 
investments in basic research in physical sciences and 
engineering over seven years, encourage more U.S. students to 
pursue science and engineering careers, and rebuild the 
competitive ecosystem through reform and tax, patent, immigrant 
and litigation policies.
    The second report I would note just came out this last June 
titled Research Universities and the Future of America, a group 
that was chaired by Chad Holliday, former CEO of Dupont. It 
presented a bipartisan congressional group that requested it 
with 10 breakthrough actions vital to our Nation's prosperity 
and security. Now, one of the things that is somewhat unique 
about this report, and we are very proud of it, is that it 
proposes actions not just by the Federal Government but by 
state governments, business and universities themselves as 
well. The report recommends that the Federal Government should 
adopt stable and effective policies, practices and funding for 
university-performed research and graduate education. It also 
recommends reducing or eliminating regulations on university-
sponsored research that increase cost and impede productivity. 
We are very grateful to Representative Mo Brooks, who has 
requested the GAO to determine ways in which this regulatory 
burden might be reduced.
    Now, what actions are other countries taking? A couple of 
years ago, the then-Premier of China, Wen Jaibao, said flatly, 
``I believe firmly that science is the ultimate revolution.'' 
China's policies, investments and rapid progress derive from 
such beliefs of their political leaders. Just in January of 
this year, the European Union announced that it would fund two 
huge science projects, each at 1 billion euros, to ``keep 
Europe competitive, to keep Europe as the home of scientific 
excellence.'' And looked at broadly, R&D investments by both 
industry and governments use to be totally dominated by the 
United States. Today, worldwide R&D investments are about a 
third in North America, about a third in Europe and about a 
third in Asia. This is a sea change. A final report at the 
request of the Department of Defense, the National Academies 
recently issued a report, ``The S&T Strategies of Six 
Countries: Implications for the United States. It provides an 
overview and analysis of programs of China, Singapore, Russia, 
India, Japan and Brazil.
    Finally, I would like to comment that in a lot of these 
discussions, and Ranking Member Johnson really headed me off at 
the pass because she clearly understands it very well, there is 
a lot of confusion of terminology of basic research, applied 
research and so forth, and I would like to use with the 
Chairman's permission, just a little bit of time to give you a 
perspective on this. Basic research is the search for knowledge 
by scientists of the natural world and how it works. Applied 
research, often conducted by engineers, suggests taking that 
knowledge, scientific knowledge, and conducting further 
investigations to forge into a useful application. Development 
moves the actual design to a mockup of a real product. So basic 
research gave us the electron and the structure of DNA, applied 
research gave us high-strength steel and the original Internet, 
development allows us to produce and market a new aircraft or a 
new computer system.
    But things are changing. Today, much of what we do, I like 
to use the term ``use-inspired basic research.'' This is work 
that is driven for--driven by the quest for an ultimate 
application goal but requires new fundamental, scientific and 
technological knowledge to get there. Use-inspired basic 
research gave us the transistor but it also gave us a lot of 
new discoveries about materials and quantum physics. Today, 
use-inspired basic research is giving us applications of new 
genomic understandings to medical treatment.
    Now, 50 years ago, most R&D was conducted in big companies 
in the United States and it followed a sequential, linear 
process that you did a lot of basic research, got a lot of 
ideas. You sort of let the market figure out which one of these 
would be important. You then moved it to applied research, then 
you did development, finding the market of the product. Today, 
industry focuses primarily on development and it most certainly 
does not use this sequential linear process because technology 
moves too fast. It can't afford to do--industry can't afford to 
do much basic research where it is not clear that company will 
receive the payoff, and finally, the results of what we use to 
call applied research and development feeds so rapidly into the 
basic research itself that you just can't ignore it and follow 
the simple linear path.
    Now, one of these two European projects I mentioned is to 
try to build the most sophisticated computer model in the world 
of how the brain works. Now, when you work on a problem like 
that, as we do in the United States, though will perhaps not at 
the scale the EU will--we will find out--you learn not only 
more things about the brain but you learn how to build better 
computers and it just circles around and all boats rise. But 
the one message I want to leave you with is that basic research 
is still done in universities primarily, including this new 
world of use-inspired basic research, with good interaction 
with companies and so forth produces the indispensable 
feedstock for companies and especially for young 
entrepreneurial companies that increasingly drive innovation, 
new products and jobs.
    Mr. Chairman, Ranking Member Johnson, thank you so much for 
the opportunity to be here. I will be happy to answer any 
questions.
    [The prepared statement of Dr. Vest follows:]

    [GRAPHIC] [TIFF OMITTED] T8823.028
    
    [GRAPHIC] [TIFF OMITTED] T8823.029
    
    [GRAPHIC] [TIFF OMITTED] T8823.030
    
    [GRAPHIC] [TIFF OMITTED] T8823.031
    
    [GRAPHIC] [TIFF OMITTED] T8823.032
    
    [GRAPHIC] [TIFF OMITTED] T8823.033
    
    [GRAPHIC] [TIFF OMITTED] T8823.034
    
    [GRAPHIC] [TIFF OMITTED] T8823.035
    
    Chairman Smith. Thank you, Dr. Vest, and thank you all for 
your testimonies today, and I will recognize myself for five 
minutes to ask questions.
    And Mr. Templeton, I would like to address my first 
question to you, and let me preface it by saying this, that in 
the United States every year, $400 billion is spent on research 
and development. About $140 billion comes from the Federal 
Government. Those are huge amounts of money but they also have 
the potential to do a huge amount of good. So my question is, 
where would you target the government's research and 
development funds to get the best returns, and what might those 
returns be?
    Mr. Templeton. Well, Chairman Smith, I guess the way I 
would describe it is, if you take a look at the innovations 
that Dr. Vest just described, investment in physical sciences 
has really been diminishing over the past 30 years as a percent 
of GDP. A lot of the studies, like in 2007 with Rising Above 
the Gathering Storm talked about doubling that over the next 
seven years. So I think that direction is the correct 
direction, and then to the question which is an important one, 
how do you shape that or how do you make decisions of where to 
apply it, I think we have got some good examples that have 
worked well in both federal agencies as well with universities, 
and with public companies to have peer-review processes to 
understand where are the most promising ideas, and if we had--
someone had noted, if we had an exact view of what the future 
was, we would be magical. We are not going to get that but what 
we want to do is use our best minds to try to shape that in the 
peer-review process. I think that is going to be the best line.
    Chairman Smith. Thank you, Mr. Templeton.
    Dr. Jackson, you mentioned in your testimony a few minutes 
ago, STEM education--science, technology, engineering and 
math--the Federal Government spends more than $3 billion a year 
to improve STEM education in our country but we have yet to see 
significant results from this investment. Do you have any 
suggestions as to what we should do to improve that record?
    Dr. Jackson. I do have a few. Thank you. First, I would say 
that there are three areas we need to focus on. One is 
improvement in K-12 education, the second is stemming losses in 
the undergraduate pipeline in STEM education, and the third, 
creating appropriate bridges to the next level.
    With respect to K-12 education, believe it or not, I 
fundamentally am one that says let us get back to basics. I am 
a theoretical physicist by background, and one cannot do that 
without a very strong, sophisticated math background, but to do 
that, one has to be able to do calculus and partial 
differential equations and all of that, but one can't do that 
without understanding geometry, trigonometry, algebra, etc. One 
cannot do those things if one cannot add, subtract, multiply, 
divide, understand a little bit about logarithms, fractions, 
percentages, etc. So the point is, it is cumulative, so we have 
to think about that, as we think about how K-12 education is 
structured. Secondly, we need it to be outcomes focused, not 
just in terms of testing but in terms of the ability to use 
concepts, to use what is learned. Third, we have to strengthen 
the teacher corps, and I am one who happens to believe that at 
least for upper-level secondary science and math subjects, that 
having discipline-based teachers is useful. And finally, we 
need to be able to use technology itself in a smart way. We are 
educating digital natives. I am a digital immigrant, latecomer, 
but we need to be able to use technology to create the right 
kind of immersive experiences, to educate those in science and 
technology.
    The point about the undergraduate pipeline is that there is 
a much larger dropout rate than people might realize in the 
first two years of undergraduate education, generally, but 
including in STEM subjects where students opt--out of those 
subjects. So there are beginning to be discussions about 
looking at how science is taught in the first two years of the 
universities and colleges. And third, when I speak of bridges 
to the next level, there really needs to be work that puts the 
basics and applications together. That is how we can draw in 
young people and they are learning things without even knowing 
they are learning. Thank you.
    Chairman Smith. Thank you, Dr. Jackson.
    Dr. Vest, in your testimony you said if we invest well in 
basic research and in education, we undoubtedly will be 
surprised by what new innovations arise. What are some of those 
new innovations?
    Dr. Vest. Well, ``surprise'' is the keyword, but since this 
is one of the questions that was forwarded to us prior to the 
hearing, I tried to give it a little bit of thought, and as Mr. 
Templeton was reminding us earlier today, it has been often 
said that the best way to find out what the future is, is to 
invent it, and I guess that is what we are all about. But I 
would point out a few areas that I think are likely. One is new 
materials. Investment in material science and engineering works 
on everything from smaller, faster computer circuits to better 
highways to better bridges. Mr. Templeton's company is actually 
driven by a philosophy on what is happening in materials 
available for semiconductors, for example. The second area is 
the combination of so-called big data and the new generation of 
artificial intelligence that if we use it well is going to help 
us understand the world better, make better decisions and 
probably give us dramatic improvements in areas like medical 
diagnosis and working together with humans, by the way, 
computers plus humans doing better medical diagnoses and better 
policy and decision making. Then it is likely that this rapidly 
advancing new generation of advanced robotics is going to 
affect everything. For manufacturing, not just on the big 
fancy, high-tech company side but on the small manufacturing 
side as well and also obviously has implications to areas like 
defense and highway safety. We are already seeing 
controversial--though it may be this growing--importance of 
drones, which is a form of robotics, and a new generation of 
self-driving cars. There is lots of reasons to sort of 
intuitively be worried about that but there is lots of data 
that is showing that it could build us ultimately in a couple 
of decades a much safer highway system.
    And finally, these really unexpected things, there are 
these very esoteric fields like quantum computing and 
biological computing that just may pop up as reality one of 
these days, giving us much better computer security, which we 
all know is a big issue, and allowing us to solve more complex 
problems than we currently can. But surprise is the big thing, 
and I want to just underscore what my good friend Dr. Jackson 
said: all this work today by the young people crosses all the 
traditional disciplines and it is really these unusual or used 
to be unusual combinations of scientific and technological 
input that will give us the real surprise innovations. Thank 
you.
    Chairman Smith. Thank you, Dr. Vest.
    The gentlewoman from Texas, the Ranking Member, Ms. 
Johnson, is recognized for her questions.
    Ms. Johnson. Thank you very much. And let me express my 
appreciation for all of the witnesses.
    My question is pretty basic. I was around during the Rising 
Storm. We are in the midst of a storm, and I am not sure how 
much change we have made, though we try. But the most recent 
research that I have read about students getting into college 
and then changing from the STEM interest concerns me greatly. 
It concerns me because the students who seem to leave those 
fields more frequently are the women and minorities, the 
growing population. What storm do we need to get gathering here 
to see if we can change the course of this? Because I really 
sincerely feel this is the future of our Nation and 
competitiveness. Anybody who wants to try?
    Dr. Jackson. Well, since I do educate a few of them, as I 
said, I think we are finding that the first two years seem to 
be very seminal in terms of how students are educated, how they 
are nurtured. At Rensselaer, we actually have a 
multigenerational approach for women in engineering. We have 
faculty who mentor postdocs who mentor graduate students who 
mentor undergraduates, and what we find is that once the 
women--and this is women across all ethnic groups, by the way--
opt truly into science or engineering. They actually graduate 
at higher rates than the men. So I think there are subtleties 
to how this all works.
    There remains a problem with respect to underrepresented 
minority males, but it is actually embedded in an issue that 
has to do with the fact that young men overall are not 
graduating at the same rates as women. So we are undertaking a 
special task force at the university to look at this question 
about how do we create more stickiness for students in the 
first two years, and looking at our teaching methodologies 
while at the same time undertaking a particular study about 
male students and what is happening with them; and we do think 
there are lots of issues having to do with cognition and 
learning, how we structure courses. And in fact, I am a member 
of PCAST and we in fact issued a report discussing some of 
these things.
    Dr. Vest. I would only like to add to that that we need to 
move our perspective back, not to make an excuse, but we need 
to move it back to the K-12 system and build a good continuum 
from K-12 through the kinds of things that RPI and MIT and so 
many other schools are now trying to do, and I would add to the 
very, in my view, correct list that Dr. Jackson gave earlier. I 
want to emphasize one of her points and add one thing to it. I 
really believe that exposing kids from inner city to 
countryside to suburbs to science and math teachers who have 
actually graduated in the field they teach. We can do this. 
This is the primary A number one recommendation of the 
Gathering Storm report and very little happened to it. So the 
idea is very simple. We need to deploy a set of scholarships to 
attract young men and women to go to college, to major in 
computer science or electrical engineering or physics or 
chemistry and at the same time be certifiable as K-12 teachers.
    Secondly, and I hope I am not getting a little too much to 
the political side, I am a big believer that we need to adopt 
voluntary standards, voluntary standards across our states in 
STEM fields just as we have in mathematics and in English, and 
these standards need to emphasize learning science by doing it, 
project based, bringing the excitement, the sense of discovery. 
This is what is going to attract more kids. Just look at things 
like the Maker movement. It attracts kids from all over the 
socioeconomic spectrum. Look at Dean Kamen's first project that 
is in every inner city in the country as well as the wealthy 
suburbs. This is the way kids today get excited. They get 
excited by doing. And I think if we could sort of focus on 
those two things, we could get more people in a more dedicated 
way into the pipeline, and then if we can top that off by 
improving the way we teach in universities somewhat along 
similar directions, maybe we can get there, but this--to me, 
this division between where kids come from and what their 
chances are to succeed, it is not America. We really have to 
get at this.
    Chairman Smith. Thank you, Ms. Johnson. The gentleman----
    Ms. Johnson. Well, I think Mr. Templeton----
    Chairman Smith. Mr. Templeton?
    Mr. Templeton. I was going to say amen.
    Ms. Johnson. Thank you very much.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me ask Mr. Templeton, does your company benefit 
directly from federal research projects? Do you actually get 
direct money from the Federal Government to do research for 
your company?
    Mr. Templeton. And that was one of my comments. To be very 
clear, this is about funding going into university systems for 
basic research, not our company, so a very simple answer.
    Mr. Rohrabacher. Okay. So there is a certain amount of 
money that your company is supporting going to a direct 
research project for a university which then your company, as 
other companies, then benefit from that research?
    Mr. Templeton. No, we have a choice and we do choose to 
participate alongside the Federal Government in long-term basic 
research as well. Very much some of the same vehicles could be 
the Nanoelectronics Research Initiative, NRI, or focus centers, 
so this will be TI putting funding into universities for long-
term basic research, and we will do a small percentage of that, 
so we are at the table and helping to shape an opinion of where 
that----
    Mr. Rohrabacher. How much money does your company actually 
invest in this type of long-term future investment?
    Mr. Templeton. It would be tens of millions on an annual 
basis, so it is not a trivial amount.
    Mr. Rohrabacher. Okay, tens of millions. Now, let me ask 
you this. Your company manufactures chips?
    Mr. Templeton. Yes, sir.
    Mr. Rohrabacher. Okay. What percentage of your production 
is in the United States, and do you manufacture in China?
    Mr. Templeton. The majority of our production today is in 
the United States. We opened our most recent wafer fab, and in 
our industry, 300-millimeter wafers or 12-inch-diameter wafers 
are leading edge. We opened that facility in Richardson, Texas, 
back in 2007, broke ground, put it online in 2010. I would 
estimate that probably 40 percent of our chips are manufactured 
in the United States but we also, to your direct question, 
manufacture some chips in Europe. We have a facility in China. 
We have facilities in Japan as well, so we are a global 
manufacturer.
    Mr. Rohrabacher. What percentage of your chips are 
manufactured in China?
    Mr. Templeton. It would be a very small percentage right 
now.
    Mr. Rohrabacher. Ten percent?
    Mr. Templeton. Oh less, significantly less.
    Mr. Rohrabacher. But your industry, there are major 
components of your industry that are engaged in manufacturing 
these types of things in China.
    Mr. Templeton. There are other parts of the industry that 
do manufacture in China, yes.
    Mr. Rohrabacher. Well, we appreciate the fact that your 
company is doing a lot of manufacturing here, and we appreciate 
that investment.
    It says here we have $400 billion in this type of research 
that is going on. Does that figure, $400 billion annually, does 
that calculate in what individual inventors put in to the mix 
or are they just not part of the calculation?
    Mr. Templeton. I don't know if they are. They are probably 
not going to be a significant percentage, okay, as measured by 
dollars but about 60 percent of that would come from private or 
companies and 40 percent of that, as Chairman Smith commented, 
would be federal funding.
    Mr. Rohrabacher. When we are talking about private 
inventors and their impact on new discoveries, how would you 
place them in terms of government programs coming up with 
something new, corporations coming up with something new versus 
the individual inventor community coming up with something new?
    Mr. Templeton. I think if you look at and take Dr. Vest's 
list of the types of breakthroughs over the past 50 years, the 
invention of the transistor or ARPANET, which led to the 
Internet, these tended to be very significant basic research 
programs that weren't in the minds of any one individual, even 
at a university but typically a network of universities and a 
network of people.
    Mr. Rohrabacher. So the foundation, but we do know that 
some very significant fortunes have been made utilizing that 
information and creating something that really was put to use 
in the marketplace, and my time is running here, but just in 
terms of the inventors, yesterday we heard about the investment 
again and government provided the money for the direct research 
that ended up with somebody in the very end of the process was 
the MRI. Well, I happen to know the guy who has the patent for 
the MRI, and, you know, without him, there wouldn't have been 
an MRI as well. Do you think that there has been--do you think 
our patent protection for these innovators, the inventors, is 
going in the right direction or the wrong direction?
    Mr. Templeton. I think in general it has moved in a 
positive direction over the past five years, trying to find 
that very careful balance of what is good to protect invention 
but not, you know, move off into where patent trolls and many 
debates go around that topic. Depending on who you are, you 
have a strong opinion one way or the other.
    Mr. Rohrabacher. The Chairman and I have differences of 
opinion on this. Thank you very much for sharing your views 
with us today, and thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you so much for scheduling this hearing. Thank you to all the 
witnesses, panelists. I really appreciated the article in the 
Politico, Mr. Templeton and Dr. Jackson.
    The testimony that you all presented to the Committee 
contains many common elements, and indeed, they are topics that 
are frequently discussed in this room, especially the 
importance of promoting STEM education and the role of 
creativity and innovation in maintaining America's leadership 
position in the global economy.
    Now, when I am out talking with constituents and industry 
leaders about this topic in my district in Oregon, especially 
about the role that creativity and innovation play in driving 
our economy forward, many of them express the importance of 
STEAM education, which is integrating arts and design in 
traditional STEM fields. Innovative companies across my 
district from companies like Nike and tech giants like Intel 
rely on employees with a mind for science but an eye for 
design, and we have discussed how integrating arts and design 
education into traditional science education can yield the sort 
of creative, innovative workforce that many of you identify as 
essential. And beyond just the benefit for the industry, 
bringing arts and design into STEM classrooms can help keep 
students engaged, and I know, Dr. Jackson, you talked about 
drawing students in. I want to tell you, I visited a STEAM 
elementary school in my district that took STEM and added arts 
and design. Those kids were engaged. They were acting things 
out. They were studying soil erosion and graphing things and 
drawing charts and planting a garden and playing with worms. I 
mean, they were really, really engaged in everything that they 
were doing.
    So in order to keep students engaged, I want to have a 
discussion about STEAM. And Mr. Templeton, you affirmed that 
government primarily conducts basic research while industry 
focuses on the D side of R&D, developing products for 
commercial application. In your experience at Texas 
Instruments, can you discuss the importance of creativity and 
design to this product development process?
    Dr. Vest, you discussed improving learning in the STEM 
fields for students and suggested promoting exciting learning 
through projects and experiences rather than just boring 
memorization of facts, and as you see it, could arts and design 
play a role in STEM education, especially in the learning 
atmosphere you envision with your comments? Thank you.
    Mr. Templeton. Well, on the aspect of creativity, the 
simple answer on that is yes. It is one thing to have numbers 
and concepts. If they cannot be brought together and visualized 
and turned into a product, it is knowledge that will not lead 
to productive things. It is also the case then if you look at 
STEAM efforts, we have very recently done something with one of 
the school districts in North Texas, and I think it has got 
great potential for the creativity that brings along. I do 
think it is important while we look at that, back to Dr. 
Jackson's comments, we have to be mindful of the basics, be it 
the math and science principles, because if we don't have that 
foundation in place, you can never get to some of the higher-
level concepts as well, so I think keeping those in balance is 
a wonderful thing.
    Ms. Bonamici. Thank you.
    Dr. Vest?
    Dr. Vest. It is a very perceptive question, in my view, and 
one I get pretty excited about, so you may have to shut me off, 
Mr. Chairman. But I cannot imagine MIT without its visual and 
performing arts component. It would not be MIT. We would not 
attract the same kind of kids. And it is very much a part, in 
my opinion, of what has to happen at both K-12 and in 
undergraduate and even graduate education in our universities. 
Rising Above the Gathering Storm tried to emphasize, we are not 
telling all kids we want them to become professional scientists 
and engineers but everybody needs to know some fundamentals 
today about science and engineering. My experience, if you look 
at virtually any of the real good high schools that are 
succeeding, High Tech High in San Diego and so forth, the 
integration of arts into their curriculum is a very important 
part. I commented on the Maker movement. This attracts kids 
from left brain, right brain, everything in between, and I am 
frankly a big believer in the STEAM movement. There is a 
hearing somewhere in Congress coming up over the next several 
weeks that my wonderful friend John Maeda from RISD, the Rhode 
Island School of Design, is helping to organize. So I am a big 
believer in this, but it always leaves me in an odd position 
because I also know that we are failing in our core STEM areas, 
so it is difficult to talk about the breadth, but yes, arts and 
the humanities are a very important part of building 
creativity.
    Ms. Bonamici. Thank you. And I am afraid I am out of time, 
but Dr. Jackson, if you wanted to----
    Dr. Jackson. You didn't pose the question to me, but we 
believe so much in it that we have built an experimental media 
and performing arts center at Rensselaer, and it is both a very 
high-end cultural and performing arts platform and it is a 
research platform at the same time. It brings the arts, 
engineering, the sciences, computer sciences all together, and 
we have various venues within it, but one in particular allows 
us to do visualization, animation, simulation, acoustics, 
haptics, haptics where you can simulate touch. All of this 
requires bringing all of the disciplines together, including in 
the arts. We have a games and simulation arts and sciences 
curriculum, and it uses that whole structure to animate what 
students do, but at the same time, we feel that fundamental 
studies in certain fields of the humanities, arts and social 
sciences are critically important and so we have built those up 
as well.
    But you know, it is funny, we have gotten into these 
buckets about what constitutes the liberal arts versus what 
constitutes science and engineering, but if you go all the way 
back to Cardinal Newman about the original definition of the 
liberal arts, they were in fact together.
    Ms. Bonamici. Thank you very much. And I am out of time, 
and that meeting is a week from tomorrow, and we will let the 
Committee Members know if they would like to attend.
    Chairman Smith. Thank you, Ms. Bonamici.
    The Chairman Emeritus, the gentleman from Texas, Mr. Hall, 
is recognized.
    Mr. Hall. Mr. Chairman, thank you very much, and this is a 
very unusual and talented group that are giving us your time, 
the time it took you to get here, the time it took you to 
appear before us, give us your testimony, get back to your 
place of occupation. I know Rich Templeton very well and admire 
him. Eddie Bernice and I, I am sure Eddie helped to ask you to 
come here, Rich. We are proud of TI. Erik Jonsson, Gene 
McDermott, Cecil Green, all those people created the University 
of Texas at Dallas and were very generous in giving around 
1,100 acres to that university. I was the Senate sponsor of 
that with a guy from the House and I am very proud of the 
university that you all have created. And Mr. Rohrabacher asked 
about your support. I could talk all day about the support of 
that university.
    I will ask you this one question about STEM graduates. And 
I know that your dream of Dallas Engineering School finally 
became a reality in 1986 and the students that you have and you 
have been a part of TI's history. What about the STEM 
graduates? Are there enough available in the United States to 
meet your current and future needs?
    Mr. Templeton. Well, Mr. Hall, first, thank you for the 
very complimentary statements about many of our founders, who 
also had deep histories at both MIT and at RPI. If you look in 
many ways, the percentage or the amount of people that we hire 
on an annual basis, we are fortunate because of our reputation 
that there is enough available. The danger is, that does not 
apply, I believe, to all industries as you go down through that 
and I think that supply will be under continued pressure if we 
don't get K-12 STEM education turned and moving in the correct 
direction.
    Mr. Hall. What are some of the key factors in motivating 
students to pursue STEM degrees?
    Mr. Templeton. Well, I think it has been touched on by 
both----
    Mr. Hall. Well, I had to leave, and I have to leave soon to 
go back to another Committee to vote. I am sorry to touch on it 
a second time if it has already been asked.
    Mr. Templeton. Oh, no, I will make it very simple. I think 
it has been talked about. Make the business come alive. If you 
look at many high school students, especially if you look at 
women trying to consider a career in science and technology, if 
you get to the undergraduate level that Dr. Jackson had talked 
about, and you see nothing but four years of math and science 
classes ahead of you before you can apply it to something that 
makes it come to life, you lose a lot of people during that 
time. When we look at the world of bioengineering to where you 
really can't see the impact you can make in lives and it really 
brings the potential career and the impact that you can have 
alive in young people's minds, then I think that is the secret 
to grow or to turn that trend around.
    Mr. Hall. The best practices that the Federal Government 
could implement to strength our Nation's R&D and maximize the 
use of taxpayers' dollars, are you a witness to that?
    Mr. Templeton. Well, I pay attention more to results, and 
right now if I look at the results coming out of K-12 STEM 
education in the United States, we continue to be ranked very 
low on most national or most global ranks, so I think the work 
that we have as a Nation is still in front of us on that.
    Mr. Hall. All right. I thank you, and I thank you, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Hall.
    The gentleman from Massachusetts, Mr. Kennedy, is 
recognized.
    Mr. Kennedy. Mr. Chairman, thank you, Madam Ranking Member, 
thank you very much for calling this important hearing. To the 
witnesses, thank you all very much for your testimony. As a 
resident of Massachusetts, we are acutely aware of the 
importance of R&D and greatly appreciate your time in coming 
here today.
    Mr. Templeton, I actually have a quick question for you 
that is slightly off topic but of important interest back in my 
district in Massachusetts and so, Mr. Chairman, I hope you will 
forgive a quick diversion. As I am sure you are aware, Mr. 
Templeton, Texas Instruments operated a manufacturing facility 
in Attleboro, Massachusetts, for several decades. Until it was 
sold in 2006, the company was a major employer in the area and 
an active member of the local community. It remains well 
respected in the city and in the surrounding areas still today. 
That being said, in the years since the Attleboro plant was 
closed, the cancer rate amongst former employees has been 
alarming. Specifically affected are those men and women who 
were employed by the company between 1953 and 1968 when TI was 
involved in the federal nuclear program. As part of the Energy 
Employees' Occupational Illness Compensation Program through 
the Department of Labor, money has thankfully been made 
available to those workers who are now suffering from crippling 
illness. I know that TI has designated an internal point person 
for the former workers who are seeking information from EEOIC, 
and I commend you and TI for doing so.
    But what I am hearing from many residents back in the 
district is that very few of the thousands of former employees 
in the Attleboro area are even aware that this program exists 
and that there are benefits available to them at all. They have 
seen minimal outreach efforts to ensure that those in need know 
how to get the help they so deserve. I read this week about 
Steve Foster from Taunton in the local newspaper. He is 
suffering from thyroid cancer. His brother also has cancer. His 
wife and father both died of cancer. All four worked in the 
Attleboro plant. Yesterday I spoke to Larry Darcy, a resident 
of Rehoboth, Massachusetts, who was diagnosed with kidney 
cancer in 1992. Larry went out of his way to credit your 
company for the opportunities that it gave him and his 
coworkers. Over 180 of those coworkers from the Attleboro plant 
that he is aware of have contracted some type of cancer.
    I tell this story, sir, not to cast blame. The human cost 
of this country's nuclear development in the 1950s and 1960s is 
not unique to Texas Instruments or to Attleboro, but I do 
believe that TI along with the Federal Government has a 
responsibility to the men and women that we put in harm's way. 
While we can't take back the exposure to the radioactive or 
toxic material that so many suffered, what we can do is 
absolutely everything in our power to make sure that we ease 
their pain today. So, sir, I would like your opinion on how my 
office can work with your company and the Department of Labor 
and Department of Energy to ensure that we are doing all that 
we can to get the compensation for those who need it. To start, 
I am wondering if, one, there is any light you can shed on the 
process that TI goes through to redoubt the former employees in 
this situation or similar situations, and two, what my office 
or the Federal Government can do to assist you in this process? 
The money is there, the program is there and the need, 
tragically, is also there. The communication is not, and we 
need to try to fix that.
    Mr. Templeton. I think, Mr. Kennedy, first, as you know, we 
have been in very close contact with the DOL, or Department of 
Labor, as well as the Department of Energy, and I think you 
described the actions we need to take which is, we need to stay 
in contact both between the appropriate government agencies and 
your office. We have been very active with the Departments to 
make sure any information we could help with was available. We 
need to continue that and take a look. If there is more than 
can be done, we should be doing it with you.
    Mr. Kennedy. Thank you, Mr. President. Which--is there--I 
would appreciate further communication with you and the 
designated point person from your office to try to understand 
if there are employee lists that go back to that time. I 
understand you have a very generous pension plan, that there 
are still health care benefits that are being paid to your 
employees, which your employees went out of the way to credit 
Texas Instruments for, but if we can somehow facilitate that 
transfer of information to the government so that they can 
reach out to those individuals, many of whom don't even know 
that there is benefits there to cover medical bills that are 
now soaring into the thousands of dollars?
    Mr. Templeton. We can certainly get the right contacts to 
you so that can be done.
    Mr. Kennedy. Thank you, sir. I yield the balance of my 
time, Mr. Chairman. Thank you.
    Chairman Smith. Thank you, Mr. Kennedy.
    The gentleman from Georgia, Mr. Broun, is recognized.
    Mr. Broun. Our government is broke. Many Members of 
Congress are either oblivious or in denial of that fact. We are 
spending more money than we are bringing in. We are headed 
towards a total economic meltdown of America if we don't make 
some changes. Now, both parties have been guilty of 
uncontrolled spending here in Washington. Promoting science as 
well as research and development is extremely important for 
America to get back on a sustainable fiscal course. We must 
start making responsible decisions and choices here in 
Congress.
    With that said, Mr. Templeton, it is well known that the 
United States has the highest corporate tax rates in the world. 
It is 35 percent at the federal level. When you add state and 
local taxes, it is much higher than that for employers and job 
creators here in America. Please discuss how the rate impacts 
businesses and how it affects those investment decisions, 
including how it can be factored into decisions regarding where 
to locate manufacturing facilities or how much to invest in 
R&D. How would business investment, hiring and overall U.S. 
competitiveness be impacted if we eliminated corporate taxes 
altogether such as my JOBS Act does? The JOBS Act will 
permanently reduce corporate taxes to zero and capital gains 
taxes to zero, and I think personally it would be a huge 
economic boon, and instead of raising taxes would raise 
taxpayers with good-paying jobs. Could you please discuss that, 
Mr. Templeton?
    Mr. Templeton. I will not disagree with your final 
conclusion. I also know it brings the double taxation dialog 
that many debate, especially in difficult budget times. But I 
think the conclusion that you are leading to in the question is 
very clear. We compete against companies that could be 
headquartered in Taiwan, for example, and some of them because 
of government policy virtually have a zero tax rate, and so if 
we try to operate in the United States market or work against 
some number incrementally at the 35 percent level and you have 
got shareholders that have an expectation for a company in 
Taiwan that operate at zero, it puts a very difficult situation 
in place for the long term, and even further to the point, and 
you have seen some of it where companies are faced with, should 
they move their corporate headquarters to different countries 
if they are trying to be responsible to their shareholders. I 
think that is a really dangerous slope to end up on as a 
country. So I think that the conclusion of your points is very 
accurate on that.
    I think it also does come back to by investing in 
university research, by having those ideas being developed 
here, we do give advantages to being U.S. headquartered and 
what we need to do is not be uncompetitive against some of 
these other countries and then I think we can get great gains 
from where we are today.
    Mr. Broun. Mr. Templeton, I believe that the high tax rate 
and the regulatory burden that the Federal Government has put 
on business and industry is what is driving manufacturing jobs 
offshore, and I believe very firmly that we have to bring those 
jobs back to America because that is what is going to get our 
economy going again, create those good-paying jobs, 
particularly in areas of science, technology and engineering, 
medical science. I am a physician. Do you have any suggestions 
about how we can look at the regulatory burden and tax burden, 
besides passing my JOBS bill, which I think is critical to 
bring those manufacturing jobs back to America? Can you give us 
some suggestions about what we can do to look at the regulatory 
burden as well as the tax burden and give us help in getting 
these shackles off of business and industry, our job creators, 
so that we can start having a strong manufacturing industry 
here in this country? And thank you for--I want to thank you 
for Texas Instruments having the manufacturing that you all do 
here in this country.
    Mr. Templeton. Mr. Broun, you know, the simplest way that I 
think about this is, we have five percent of the world's 
population, which says 95 percent of it is somewhere else. So 
when we think about economic growth for our country and for 
companies that are headquartered in the United States, we have 
to have policies and plans that let U.S.-headquartered 
companies compete globally because it ends up creating great 
opportunities and great economic growth in the United States. I 
think therein lies the beginning of that policy on how can our 
U.S.-headquartered companies be highly competitive. That then 
brings in issues of tax. That brings in issues like today's 
hearing on research and investment into basic universities. It 
brings into scope, you know, issues on regulation. We want to 
be able to operate well but we need to also be able to operate 
competitively on a global basis, and when that frame is in 
place, I think you can get to those points or those conclusions 
pretty quickly.
    Mr. Broun. Thank you, Mr. Templeton. I yield back.
    Chairman Smith. Thank you, Mr. Broun.
    The gentleman from California, Mr. Bera, is recognized.
    Mr. Bera. Mr. Chairman, thank you for convening this 
hearing.
    I will make a quick comment. As a former Associate Dean at 
the University of California Medical School, we did look 
extensively at the loss of undergraduate talent, and that 
clearly is tied to our K-12 system, particularly in lower-
income communities and students just not being prepared. If we 
can hold on to those students when they get to their junior 
year, they do make up the gap, but we lose far too many of our 
students there.
    My question, I will direct it at Dr. Jackson. You are also 
coming out of a research university background. A key element 
that we need to focus on is that technology transfer issue, how 
academia and industry partner, and if you could give us some 
specific recommendations, and I would open it up to any of the 
panelists, how we can do that better, how we can work on that 
partnership?
    Dr. Jackson. Thank you. I would say a couple of things. 
First, there are many mechanisms. This whole question about 
technology transfer, how ideas go from the university into the 
marketplace is a complex one and it happens within multiple 
groups. They are public. They are university-industry 
partnerships, industrial liaison programs. There are 
entrepreneurs who take the intellectual property they develop 
in the university, out of the university. The university 
licenses out intellectual property. All of these things are 
pathways for that. I think there is a balance that one has to 
strike, as a university president, in terms of the focus on the 
basic research and the fundamental learning that goes along 
with that, and the exploitation of the intellectual property to 
move it into the marketplace and fundamentally we are focused 
on both. We actually have a 1,250-acre technology park that is 
actually home to about 70 enterprises, primary technology 
based. We have what is called the Emerging Ventures Ecosystem, 
which specifically seeks into the research, work with our 
faculty, find where there is exploitable, important 
intellectual property, and then look for the right 
translational pathway, whether that pathway has to do with 
licensing, with helping the faculty member launch a company, 
joint venturing, etc. We also operate, as part of, that an 
incubation program, but in our case, we went from having one 
fixed incubator to having kind of a virtual incubator where we 
broker the right space for companies. This is very important.
    And I spoke in my oral remarks about shared infrastructure. 
A big problem for many startup companies, particularly in areas 
of new technology, has to do with the so-called valley of death 
where they go from the sort of very initial startup phase and 
they may get angel investors for that, to be able to scale what 
they do, to do prototyping and then ultimately get larger 
investment. And so there has to be a way for that to happen. It 
is interesting that we, in some ways, do that through certain 
mechanisms like OPIC and the Ex-Im Bank when it comes to 
companies doing things out of the country. But we need 
something that relates to that kind of thing inside the 
country. So these are some of the things I would say.
    The other has to do with patent policies, and on the one 
hand, the new patent legislation is very helpful. It is very 
helpful to companies in particular. But it has caused 
universities to rethink, particularly the piece having to do 
with ``First to File.'' On the other hand, in terms of the kind 
of domain within which to operate and how to ensure that, it 
has been helpful. So all of these kinds of mechanisms exist. I 
also believe that--and Chuck talked about making the R&D tax 
credit permanent. That has an effect that spurs, I think, 
companies to do more, but it also, in an interesting way 
because of that spur can increase the interest of companies in 
working with universities in more basic areas.
    Mr. Bera. Great. Thank you.
    Chairman Smith. Thank you, Mr. Bera.
    Dr. Vest. Mr. Chairman, may I add to that?
    Chairman Smith. Yes, Dr. Vest.
    Dr. Vest. Just very quickly, I learned four things about 
this in 14 years as President of MIT and two of them have been 
greatly supplemented by what I have learned at the National 
Academies. First of all, we need a simplified policy patent, 
and I am not talking about federal policy now; I am talking 
about agreements between universities and companies, at least 
for modest-scale projects. It should be a boilerplate, no 
negotiation kind of package, and we are making some progress 
toward that.
    Second, what we most need with big companies, long-term 
strategic partnerships, sticking with it in ways that honestly 
the Federal Government frequently can't do. There is a great 
example of Mr. Templeton's company and a few faculty at MIT in 
the area of signal processing. It has been running for decades, 
not at a terribly high financial level but it has been really 
productive.
    Third, and not every university can do this, I would admit, 
but we need some large-scale partnerships by which I mean 
significant multimillion-dollar partnerships between the 
university and a company because only then do you get real 
interaction with the thought-leaders in the company. You can't 
do many of them but a few of them are important.
    And finally, on the entrepreneurial side, which is so much 
of what is ``technology transfer'' today at an RPI or an MIT or 
virtually any of our great public or private universities, 
creating opportunities for young people to get coached. Hands-
on coaching by real entrepreneurs and real VCs is just worth 
its weight in platinum. It is the real key to building up that 
ecostructure. Thank you.
    Chairman Smith. Thank you, Dr. Vest. Thank you, Dr. Bera.
    The gentleman from Mississippi, Mr. Palazzo, is recognized 
for questions.
    Mr. Palazzo. Thank you, Mr. Chairman, and I thank our 
witnesses for being here today. There has been some very good 
discussion.
    You know, there is no doubt that foreign competitors 
present a substantial challenge to U.S. economic 
competitiveness and some of those reasons why they are doing 
well is some of the self-inflicted wounds that we have caused 
to ourselves such as having an antiquated tax code that really 
is punishing our corporate job creators in America as well as 
the job-killing regulatory regime that is pushing a lot of 
American jobs overseas and actually pushing a lot of businesses 
just out of business, killing small business as well.
    One field of endeavor for American competition is still 
space. So my question is going to be space-specific. I am 
pretty much a one-trick pony when it comes to this Committee, 
and anything space and aeronautics is what I like to talk 
about.
    America used to be in a space race with the Soviet Union, 
and today, unfortunately, NASA purchases seats on the Russian 
Soyuz rockets at $16 million per astronaut to launch to the 
International Space Station that we built with the now-retired 
space shuttle. So my question is for everyone. How do you think 
America's ceding leadership in space like that translates to 
the sense among many Americans that we are no longer a 
technology leader? And we will start with Mr. Templeton.
    Mr. Templeton. You know, I think in many ways, as many on 
this Committee probably know, the space race was a very 
polarizing, very inspiring challenge back in the 1960s and 
provided tremendous investments that led to things like the 
semiconductor industry. I suspect when the space race was 
underway there was no one sitting around in federal labs or at 
an agency planning out semiconductor industry leadership 30 
years from when they began that race. So, you know, I am not 
qualified to comment about the specifics of space or not, but I 
think wonderfully challenging goals, okay, really help this 
country, really bring energy and inspiration to invest and go 
try to do great things, and whether that is a space objective 
or things in the biomedical field that were talked about, I 
think those have, you know, great potential when we think about 
this challenge in front of us.
    Mr. Palazzo. Dr. Jackson?
    Dr. Jackson. Thank you. You know, it turns out that one of 
my predecessors as President of RPI, Rensselaer, was George 
Lowe, who basically was the operations director who ran the 
Apollo program that put man on the moon. As well, a number of 
our graduates have been involved in more recent work in 
designing and launching the Mars Rover. So it is a big part of 
our history and tradition. But what I would say is the 
following. There are a number of pieces, some having to do with 
basic research, and I will mention just a couple of things with 
that, some having to do with infrastructural questions, and 
then the third having to do with the overall industrial 
capability to do these things.
    On the basic research, if you think about space missions, 
they depend on fundamental science and people want to explore 
space for that reason. The knowledge of it, as well, is 
particularly important for various kinds of missions including 
potential manned missions. It requires computational 
capability. It requires strength in material science and 
engineering. It requires strength in aerospace and thinking 
about new propulsion systems. You mentioned our having to use 
other people's rockets to get people to the International Space 
Station. We also use other people's rockets to launch our 
satellites and so that is an infrastructural question.
    And then, you know, there is an overall question about 
overall industrial and manufacturing capacity to continue to 
make and develop these sorts of technologies, and I am sure Mr. 
Templeton can speak more directly to that, but these are areas 
that concern me as we go forward.
    Mr. Palazzo. Before I go to Dr. Vest, I do want to ask one 
more question because I know we are getting short on time. Dr. 
Jackson, does the space exploration, American space 
exploration, still excite children to study science, math, 
engineering and technology?
    Dr. Jackson. It sure does. We had a presentation at 
Rensselaer and it was during one of our alumni weekends of the 
landing of the Mars Rover, and that is because our Dean of 
Science, in fact, had two experiments on the Rover and was 
there the day the latest Rover landed. We also had some of the 
engineers in who were involved with the design and development 
of the latest Rover, and frankly, half the space, and we had it 
in a concert hall in our experimental media and performing arts 
center that holds about 1,200 people and half the people were 
young people and they were so excited. So absolutely, but I 
think it relates to Mr. Templeton's point that a big idea, 
something that we galvanize around, we rally around is really 
what captures people's imagination.
    Mr. Palazzo. Thank you.
    Dr. Vest. I am going to speak out of both sides of my 
mouth, first by saying this generation has its own great 
challenges that it needs to be and is excited about, 
sustainability and energy security and resilience, provision of 
health care. It has got big challenges of its own that are even 
more important than the space race was, and we need to give 
some focus to that.
    Having said that, I will admit I am a space cadet. I grew 
up in the 1950s and 1960s and lived through all this wonderful 
period. It is still--when we survey incoming freshmen at MIT, 
space is still the largest single motivator among these kids of 
why they went into science and engineering. That is the reason 
we need to keep at it.
    But having said that, these programs are so big and so 
expensive that I think we need to find the right way to do them 
internationally. At one level it hurts me, but my logic, it 
doesn't bother me too much that at least for a period of time 
we are launching humans with a Russian rocket. We need this 
kind of synergy and integration. But I will tell you, nobody 
has done anything as exciting as this Mars lander. I mean, it 
was unbelievable.
    And very quickly, you may know the story of the guy who 
managed the actual engineering of that project and that landing 
was a drop-out from high school who became a rock musician and 
eventually decided he wasn't going to make it with that and one 
night literally was driving home and looked up in the sky and 
saw Venus and he started thinking about this and he got more 
and more excited, and he said, you know, this is my destiny is 
to get out there somewhere, and I apologize for not having his 
name at my fingertips. He went back to community college, got a 
technology degree, started to work, eventually went to 
university and became an engineer and ran that project. You 
know, that is the kind of excitement we need, and we can kind 
of duplicate that with what we do in education. But I was very 
disappointed by the short time scale of America's attention to 
that program because I can't imagine anything more exciting. I 
have to----
    Chairman Smith. I am afraid to interrupt you all. Votes 
have been called and I am going to try to squeeze in one more 
Member to ask questions. Mr. Palazzo, thank you for your 
questions.
    And also, let me sort of explain the situation to everyone 
who is here. The series of votes will mean we will not be able 
to come back for about an hour. Our Democratic friends are 
getting on buses immediately after these votes to go to an out-
of-town retreat, and I am just wondering how many Members 
really would come back in an hour and if they might consider 
submitting questions in writing, and if that is not acceptable, 
we will come back, but if that is acceptable, I just apologize 
to you for not having time for Members. Does that sound all 
right? Okay. Thank you for your consideration.
    The gentleman from California, Mr. Swalwell, is recognized 
for his questions.
    Mr. Swalwell. Thank you, Chairman Smith and Madam Ranking 
Member Johnson, and thank you, Mr. Templeton, Dr. Jackson and 
Dr. Vest.
    We have talked a lot about startups today, and I am a 
startup Member of Congress, having just arrived here. I came to 
Congress wanting to support the innovation agenda, and as a 
freshman and a new Member in Congress, and a new Member to this 
Committee, I am encouraged that our first hearing is on 
research and development. I represent California's East Bay, 
where people understand that to do big things, you have to take 
big risks, and I am excited to be on this Committee because I 
truly do believe in science, and I believe in what science can 
do, and as our Ranking Member mentioned, the number of 
innovations that have come out of the Federal Government's role 
in science is very important to me.
    I wanted to talk to you a little bit about Dr. Jackson and 
her testimony about collaboration between government and 
business and also Mr. Templeton discussed good examples of 
public R&D partnerships in the semiconductor industry. In 
Livermore, California, we have what is called IGATE, Innovation 
for Green Advanced Transportation Excellence. It is a regional 
public-private partnership designed to support small businesses 
and maximize the economic potential of green transportation and 
clean energy technologies. It is a partnership with the cities 
in the surrounding communities, Sandia and Lawrence Livermore 
National Laboratories and also the University of California, 
the Berkeley and Davis campuses.
    And so my question is, we are just starting to see this 
project get off the ground, but as you can imagine, one of the 
biggest challenges is access to capital, to have an incubator-
type setting where you can have small startups, medium-size 
startups come in and do the work that they need to do to create 
local made in America jobs. And so a couple questions. One, is 
there still a role for the Federal Government to play? Because 
I believe you need a federal partner if you are ever going to 
activate a region like that. Two, what can we do to increase 
access to capital as a Congress so that we can see those 
startups get going and create jobs? And three, how do we--and 
when we talk about the ecosystems of innovation, how do we also 
find those pipelines to the students where we have those 
businesses not just working on creating jobs but also 
transferring their knowledge to high school and college 
students who are going to be the next generation in those 
industries? So is there a role, how do we get the access to 
capital, how do we educate our children?
    Dr. Jackson. I will try to be succinct. I would say 
absolutely, there is a role. Now, we have talked about one 
element of that role having to do with support for basic 
research, support for students, both at the undergraduate level 
and importantly where we have not talked about it for graduate 
education and its linkage to research. But importantly, you 
mentioned energy, green energy technologies. Energy tends to be 
a huge kind of--there are any number of demonstration projects 
early in kinds of things people can do but it is the kind of 
activity that requires a certain degree of activity at scale, 
and so that kind of infrastructural support is very important, 
and the Federal Government can do any number of things, but one 
is simply to provide a safe harbor for corporate partners to 
come together, not unlike SEMATECH, to bring them together with 
universities, particularly in precompetitive research including 
applied research areas, to help support shared infrastructure 
and that is where smaller companies that really need to do 
prototyping. Some of the national labs are providing their 
major computational facilities to help companies with modeling 
and simulation, to be able to improve and begin to think about 
how to scale what they do. So it is kind of a daisy chain going 
from the fundamental research to creating the kind of safe 
harbors and partnerships that can allow roadmaps to be 
developed and people to move along, with the shared 
infrastructure as well. I am sure I have left something out, 
but these are some of the things that we try to do, and we 
don't have the benefit of being in Silicon Valley, we are in 
upstate New York, and so we don't have a big national lab. So 
the state has stepped in and done a lot of things, and then the 
universities themselves have come together. Thank you.
    Mr. Swalwell. Thank you. I yield back the balance of my 
time.
    Chairman Smith. Thank you. We have got about four minutes 
left to go vote. I thank you for yielding back.
    Let me thank our witnesses today for their just wonderfully 
inspiring testimony. It has been very helpful, very 
informative, and I hope those who are watching this hearing 
either in person or on C-SPAN recognize that we are talking 
about a wonderful future for them and their children and 
grandchildren if we make the kind of investments in research 
and technology that we should. It is just going to pay a vast 
amount of rewards. It will improve productivity. It will 
improve people's standard of living, and that will benefit us 
all, but thank you all for your participation today.
    [Whereupon, at 11:12 a.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Mr. Richard Templeton

[GRAPHIC] [TIFF OMITTED] T8823.036

[GRAPHIC] [TIFF OMITTED] T8823.037

[GRAPHIC] [TIFF OMITTED] T8823.038

[GRAPHIC] [TIFF OMITTED] T8823.039

Responses by Dr. Shirley Ann Jackson

[GRAPHIC] [TIFF OMITTED] T8823.040

[GRAPHIC] [TIFF OMITTED] T8823.041

[GRAPHIC] [TIFF OMITTED] T8823.042

[GRAPHIC] [TIFF OMITTED] T8823.043

[GRAPHIC] [TIFF OMITTED] T8823.044

Responses by Dr. Charles Vest

[GRAPHIC] [TIFF OMITTED] T8823.045

[GRAPHIC] [TIFF OMITTED] T8823.046

[GRAPHIC] [TIFF OMITTED] T8823.047

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
